NO. 20

IN THE

SUPREME COURT
OF THE UNITED STATES
CLARENCE HOFFERT
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondents
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

QUIN M. SORENSON, ESQ.
Assistant Federal Public defender
Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
quin_sorenson@fd.org
Counsel for Petitioner

July 9, 2020

* Counsel of Record

In accordance with Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Clarence Hoffert, requests leave to file the enclosed Petition for
Writ of Certiorari to the United States Court of Appeals for the Third Circuit without
prepayment of costs and to proceed in forma pauperis based upon an appointment
under the Criminal Justice Act, 18 U.S.C. § 3006A(d)(6). Pursuant to the Criminal
Justice Act, the Federal Public Defender’s Office was appointed to represent the
Petitioner in the United States District Court for the Middle District of Pennsylvania
and in the United States Court of Appeals for the Third Circuit.
Respectfully submitted,
HEIDI R. FREESE
Federal Public Defender
/s/ Quin M. Sorenson
QUIN M. SORENSON
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Counsel for Petitioner,
Clarence Hoffert
Date: July 9, 2020

